Details of Findings




                U.S.Department
               U.S.   DepartmentofofEnergy
                                      Energy
                OfficeofofInspector
               Office      InspectorGeneral
                                     General
                OfficeofofInspections
               Office      Inspectionsand
                                       andSpecial
                                           SpecialInquiries
                                                   Inquiries




  Inspection Report

  Office of Science Laboratory
  Conferences




  DOE/IG-0794                                        May 2008
                                Department of Energy
                                     Washington, DC 2 0 5 8 5

                                       May 2 2 , 2 0 0 8

MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Office of Science
                         Laboratory Conferences"

BACKGROUND

The Department of Energy's Office of Science manages ten major laboratories, comprising one
of the most comprehensive research systems of its kind in the world. Office of Science entities
hold a variety of conferences that bring together a broad range of scientists and researchers to
present scientific results, discuss technologies, and expand collaboration.

Federal and Department policies provide guidance on the use of Federal and non-Federal funds for
conferences, with the objective of ensuring that conferences are managed in a cost effective manner.
These policies include restrictions on the use of funds for items such as food, alcohol, and
entertainment. Further, the Department requires that conferences be approved in advance and that
conference details be included in the Department's Conference Management System database. The
System provides senior Department officials with information they need to ensure that Department-
sponsored conferences are managed responsibly. According to the Conference Management System
database, the Department held over 900 conferences, symposia, workshops, and meetings in fiscal
years 2005 through 2007 at an estimated cost of almost $38 million. However, as discussed in the
attached report, we found that these numbers were materialIy understated.

We conducted a review of selected Office of Science sponsored or co-sponsored conferences
managed by three of its laboratories to determine whether the conferences were managed cost
effectively, consistent with applicable policies and regulations. The laboratories were Argonne
National Laboratory, Oak Ridge National Laboratory (ORNL), and Thomas Jefferson National
Accelerator Facility.

RESULTS OF INSPECTIOIV

We did not identify any issues with the selected conferences managed by Argonne National
Laboratory. Although relatively minor, we found that Thomas Jefferson National Accelerator
Facility was not conlplying with a Department requirement regarding the use of certain
conference fees. Most significantly, ORNL had not managed conferences in accordance with
applicable policies and regulations. Specifically, we found that, contrary to Federal and
Department requirements:

           ORNL incurred "unreasonable" costs associated with conference-provided meals. At
           one 4-day conference in 2007, the Department spent over $230,000 to provide meals
           for approximately 3 18 attendees. We examined the menus for the meals provided at
           this conference. While it is an admittedly subjective judgment, we found these meals
           to be upscale and elaborate, which was reflected in the cost of the conference.
           Further, the nature and cost of the meals undennined the Department's stated
           philosophy of moderating Government expenses at such functions;

           ORNL used registration fees from non-Department sources to pay for alcohol,
           entertainment, and gifts. For example, at one conference, $27,225 was spent on an
           afternoon social event at a yacht club and $650 on cigars and wine. Such costs are
           generally treated as unallowable. This problem, although to a much lesser extent, was
           also found at Thomas Jefferson National Accelerator Facility;

           ORNL had not requested or obtained Department approvals prior to holding a number
           of conferences during fiscal years 2005 through 2007. Such approvals help ensure,
           among other things, that conference locations and costs are appropriate; and,

           ORNL had not provided conference infonnation for inclusion in the Department's
           Conference Management System database, resulting in a material understatement of
           Department conferences and conference costs.

In addition, based upon a review of a sample of travel vouchers associated with selected
conferences, we found that, although meals had been provided to the attendees during the
conferences, some Federal and contractor employees had not deducted the corresponding meal
per diem amounts from their official travel vouchers. Thus, it appeared these individuals
claimed and were reimbursed for meals they received at no cost. Information regarding this
matter was provided to appropriate officials.

We recognize the contribution that scientific gatherings can make to the Office of Science
mission. However, in the cases cited in this report, we believe that the taxpayers' interests would
have been better served if the sponsors of the conferences had: (i) adhered to Department
conference management guidance; and, (ii) had exercised greater care in expending the limited
science resources entrusted to the Department.

We made nine recommendations aimed at improving the Department's management of
conferences and associated costs.

MANAGEMENT REACTION

In respondiiig to a draft of this report, management concurred with our recommendations and
identified corrective actions taken, initiated, or planned. Management's verbatim comments are
provided in Appendix C of the report.

Attachment
cc: Acting Deputy Secretary
    Under Secretary for Science
    Under Secretary of Energy
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Director, Office of Science
    Director, Office of Management
    Associate Administrator for Management and Administration
    Manager, Oak Ridge Office
    Manager, Chicago Office
    Manager, Thomas Jefferson Site Office
    Director, Office of Internal Review (CF-1.2)
    Director, Policy and Internal Controls Management (NA-66)
OFFICE OF SCIENCE LABORATORY CONFERENCES

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   1


              DETAILS OF FINDINGS

              Conference Meals               3

              Registration Fees              4

              Conference Approval            5

              Conference Reporting           6

              Travel Vouchers                7


              RECOMMENDATIONS                8


              MANAGEMENT COMMENTS            9


              INSPECTOR COMMENTS             9


              APPENDICES

              A. Scope and Methodology       10

              B. Prior Reports               11

              C. Management Comments         12
OVERVIEW

INTRODUCTION       The Department of Energy’s (Department’s) Office of Science
AND OBJECTIVE      is the single largest supporter of basic research in the physical
                   sciences in the United States. Its mission is to deliver the
                   discoveries and scientific tools that transform the understanding of
                   energy and matter and advance the national, economic, and energy
                   security of the United States. The Office of Science manages ten
                   major laboratories, one of the most comprehensive research
                   systems of its kind in the world. In support of its mission, Office
                   of Science entities hold a variety of conferences that bring together
                   Federal, academic, and industry scientists and researchers to
                   present scientific results, discuss technologies, and discover new
                   approaches to collaboration.

                   Federal and Department policies provide guidance governing the
                   use of Federal and non-Federal funds for conferences and place
                   restrictions on the use of funds for items such as food, alcohol, and
                   entertainment. Further, the Department requires that conferences
                   be approved in advance and that conference details be included in
                   the Department’s Conference Management System database. In
                   this way, the Department can accurately report conference data to
                   management, Congress, and other Federal agencies, as required.
                   According to the Conference Management System database, the
                   Department held over 900 conferences, symposia, workshops, and
                   meetings in fiscal years 2005 through 2007 at an estimated cost of
                   almost $38 million. As discussed later in this report, our
                   inspection suggested that these numbers were materially
                   understated.

                   We conducted a review of selected Office of Science sponsored or
                   co-sponsored conferences managed by three Office of Science
                   laboratories to determine whether the conferences were managed
                   cost effectively and consistent with applicable policies and
                   regulations. The laboratories were Argonne National Laboratory,
                   operated for the Department by UChicago Argonne, LLC; Oak
                   Ridge National Laboratory (ORNL), operated by UT-Battelle, LLC;
                   and, Thomas Jefferson National Accelerator Facility (Thomas
                   Jefferson), operated by Jefferson Science Associates, LLC.

OBSERVATIONS AND   We did not identify any issues with the selected conferences we
CONCLUSIONS        reviewed at Argonne National Laboratory. However, we concluded
                   that Thomas Jefferson was not complying with a Department
                   requirement regarding the use of certain conference fees and, most
                   significantly, ORNL had not managed conferences in accordance




Page 1                                                 Office of Science Laboratory
                                                       Conferences
         with applicable policies and regulations. Specifically, we found
         that, contrary to Federal and Department requirements:

            •   ORNL incurred “unreasonable” costs associated with
                conference-provided meals and, thus, did not always
                minimize conference costs. For example, at a 4-day
                conference held in 2007, UT-Battelle spent $236,300 of
                Department funds to feed approximately 318 people;

            •   ORNL used registration fees from non-Department sources
                to pay for alcohol, entertainment, and gifts. For example,
                at one conference, UT-Battelle spent $27,225 on an
                afternoon social event at a yacht club and $650 on cigars
                and wine. This problem, although to a much lesser extent,
                was also found at Thomas Jefferson;

            •   ORNL had not requested or obtained Department approvals
                prior to holding a number of conferences during fiscal
                years 2005 through 2007. Such approvals help ensure,
                among other things, that conference locations and costs are
                appropriate; and,

            •   ORNL had not provided conference information for
                inclusion in the Department’s Conference Management
                System database, resulting in a material understatement of
                Department conferences and conference costs.

         In addition, based upon a review of a sample of travel vouchers
         associated with selected conferences, we found that, although meals
         had been provided to the attendees during the conferences, some
         Federal and contractor employees had not deducted the corresponding
         meal per diem amounts from their official travel vouchers. Thus, it
         appeared these individuals claimed and received reimbursement for
         meals they received at no cost. Information regarding this matter was
         provided to appropriate officials.

         During the course of our inspection activities, we discussed our
         findings with Department and contractor officials, who stated that,
         based upon the results of our work, they had initiated internal
         reviews and corrective actions.

         The Office of Inspector General has completed a number of
         reviews related to the Department’s conference management
         practices. Appendix B contains a list of related reviews, which in
         some instances identified the need to develop specific policies and
         guidance related to conference management.


Page 2                                    Observations and Conclusions
Details of Findings


CONFERENCE            We found that, contrary to Federal and Department requirements,
MEALS                 ORNL incurred unreasonable costs associated with conference-
                      provided meals and, thus, did not always minimize conference
                      costs.

                      The Federal Travel Regulation (FTR) establishes requirements and
                      travel policies for Government employees and others attending
                      conferences at public expense. The FTR suggests that meals
                      provided to conference attendees not exceed the General Services
                      Administration (GSA) Temporary Duty (TDY) Travel Allowance
                      daily meal rate each day. The FTR also allows agencies managing
                      a conference to provide light refreshments, which are defined to
                      include such items as coffee, tea, soft drinks, donuts, bagels, and
                      fruit. The Federal Acquisition Regulation (FAR), Part 31, requires
                      that, for a cost to be an allowable cost to the Government, it must
                      be determined to be reasonable. The FAR states that a cost is
                      reasonable if, in its nature and amount, it does not exceed that
                      which would be incurred by a prudent person in the conduct of
                      competitive business. It further states that the burden of proof
                      shall be upon the contractor to establish that such cost is
                      reasonable. Department Order 110.3A, “Conference
                      Management,” requires that conference expenditures be kept to the
                      minimum necessary to accomplish program objectives.

                      UT-Battelle, ORNL’s operating contractor, is contractually required
                      to follow these regulations and the directive. We examined the
                      meal costs for four conferences managed by UT-Battelle. We
                      identified problems with all four. For example, we analyzed the
                      2007 “Scientific Discovery through Advanced Computing
                      Program” (SciDAC) 4-day conference held at a hotel in Boston,
                      MA. Approximately 318 Federal and private sector personnel were
                      slated to attend the event. Participants were provided full breakfasts
                      and lunches, morning and afternoon snacks, as well as food and
                      beverages at four evening events. We determined that the
                      Department paid over $236,300 for food and beverages at the
                      conference. UT-Battelle conference officials told us that they did
                      not have specific written policies regarding conference meal costs.
                      However, they told us that, for each meal, it was their practice to
                      allow conference planners to spend up to 100 percent of the
                      conference locale’s GSA TDY daily meal rate and that, for each
                      snack, they could spend up to 40 percent of the daily meal rate. The
                      daily meal rate in Boston was $61, so conference organizers
                      contended that they could spend up to $61 for breakfast, $61 for
                      lunch, and $61 for an evening event, as well as $24.40 for a
                      morning break and $24.40 for an afternoon break. This totaled


Page 3                                                               Details of Findings
               over $230 per person, per day. Thus, the actual expenses borne by
               the Department, and, in turn, by U.S. taxpayers, dramatically
               exceeded the GSA standard of $61 per day per participant. In fact,
               one day’s expenditures paid by the Department were almost 400
               percent of the GSA TDY daily meal rate in Boston.

               We were unable to determine, and UT-Battelle was unable to
               provide, the basis under which it adopted its business practice for
               conference meals. We spoke with Department Oak Ridge Office
               (ORO) officials about the practice, and they informed us that they
               were unaware of its existence. Further, they were unaware of the
               volume and nature of the food being provided. We were told by an
               ORO official that this occurred, in part, because of the lack of
               specific Department guidance governing the cost and
               reasonableness of conference-provided food and beverages. We
               believe the Department could strengthen its conference
               management by issuing more-specific guidance for conference
               planners on allowable food and beverage costs.

               As a result of our inspection, ORO initiated a 100 percent review
               of conferences managed by UT-Battelle from October 2005
               through September 2007 to ensure meal costs did not exceed the
               GSA TDY daily meal rate. Based upon its final findings, ORO
               informed us it had identified $606,000 in costs that exceeded the
               GSA TDY daily meal rate. ORO also told us that it had expanded
               its review to include the recordkeeping and accounting systems. In
               addition, an ORO official advised us that, based on the results of
               this review, an additional review of UT-Battelle’s business meals
               will be conducted.

REGISTRATION   We found that, contrary to applicable requirements, ORNL used
FEES           registration fees from non-Department sources to pay for alcohol,
               entertainment, and gifts at certain Office of Science conferences
               that it managed. Office of Science conferences are attended by
               Department, Department contractor, and private sector academic
               and industry scientists and researchers. Department Order 110.3A
               provides for the collection of registration fees from attendees to
               offset associated conference costs. However, the Order
               specifically states that these fees may not be used to pay for any
               type of unallowable costs, such as alcoholic beverages and
               entertainment, including social activities. Further, 48 Code of
               Federal Regulations Part 31.205 specifies that gifts are an
               unallowable cost. We determined that UT-Battelle paid a
               substantial amount of these types of costs using registration fees
               from non-Department attendees, including:




Page 4                                                       Details of Findings
                    2005 Particle Accelerator Conference, Knoxville,TN

                •    $67,983 - Welcome reception and social banquet
                •    $35,000 - 1,200 executive pens with USB drives
                •    $12,172 - Alcoholic beverages served at receptions

                    2006 Linear Accelerator Conference, Knoxville, TN

                •    $27,225 - Afternoon social event at an area yacht club
                •    $13,731 - Alcohol and food at social events
                •    $2,175 - Musical entertainment
                •    $650 - Cigars and wine purchased as gifts

             We found that Thomas Jefferson also used registration fees from
             non-Department sources to pay unallowable costs, i.e., alcohol and
             entertainment, but that it was to a much lesser extent.

             The diversion of registration fees from non-Department conference
             participants to pay unallowable costs reduces the amount of these
             fees available to pay allowable costs. Such action directly increases
             the need for Department funding of allowable costs. We discussed
             our findings with UT-Battelle and Jefferson Science Associates
             officials. They stated they would immediately cease using non-
             Department registration fees to pay for unallowable costs. In
             addition, Department officials at ORO and Thomas Jefferson told us
             that they plan to review all costs paid by registration fees.

CONFERENCE   We found that ORNL had not requested or obtained the required
APPROVAL     Department approvals prior to holding a number of conferences
             during fiscal years 2005 through 2007. Such approvals help senior
             decision makers ensure that (1) conferences are justified and not
             duplicative and (2) the locations selected and costs incurred are
             appropriate and reasonable. Department Order 110.3A requires
             that conferences be approved by a program Secretarial Officer; the
             head of a Department Headquarters element; their principal
             deputies; or, if delegated, the head of a field element.

             We interviewed a UT-Battelle official and were told that in 2001
             the ORNL Conference Center instituted a practice to exclude all
             conferences from the required approval process. We were told that
             UT-Battelle reached this decision based on a contention that all of
             the conferences it managed met an exclusion provision in DOE
             Order 110.3A for Department “technical/ business program,
             project, or peer reviews.” On this basis, the ORNL Conference
             Center had excluded its conferences from the Department approval


Page 5                                                     Details of Findings
             process outlined in the Order. We concluded that this position was
             inconsistent with the letter and intent of applicable Department
             policy.

             Our review of selected conference records back through 2005
             confirmed that UT-Battelle was not obtaining the required
             approval for its conferences. An ORO official told us that, as a
             result of our inspection, a 100 percent review was being conducted
             for all UT-Battelle conference exclusions used between 2005 and
             the first quarter of 2008. The official said that the review had
             already identified a number of excluded conferences that clearly
             did not meet the technical/business program, project, or peer
             review exclusion; and, therefore, these conferences should have
             been subject to Department approval.

             We noted that the Office of Science had distributed guidance in
             April 2005 and again in September 2006 on the conference
             approval requirement. ORO sent UT-Battelle senior management
             this guidance, as well as additional implementing guidance, in
             September 2005, May 2006, and October 2006. The guidance
             addressed the approval process and cost incursion for conferences.
             For example, all sponsored and co-sponsored conferences required
             approval from ORO and, depending on the cost, the Office of
             Science as well. Further, in general, no costs were to be incurred,
             nor any contractual commitments authorized, until the requests had
             been approved. ORO officials acknowledged that they had not
             implemented a mechanism that would ensure UT-Battelle
             complied with the guidance. Based on the results of our
             inspection, ORO and UT-Battelle senior management told us that
             the ORNL Conference Center procedures and practices would be
             updated to ensure that all conference information is submitted for
             the proper approvals as required.

CONFERENCE   We found that ORNL had not provided required conference
REPORTING    information for inclusion in the Department’s Conference
             Management System (CMS) database. The CMS database is
             managed by the Department’s Office of the Executive Secretariat.
             It is designed to generate reports to alert Department managers of
             any activities that appear inconsistent with Department conference
             management policy and procedures; provide the Department a tool
             to view approved and proposed conferences for information,
             planning, and decision-making purposes; and, compile information
             for members of Congress and other Federal agencies as necessary.
             Department Order 110.3A requires all Department elements to
             enter all conference activities into the database.



Page 6                                                     Details of Findings
           We reviewed the CMS database for ORNL conference information
           and determined that there were 195 entries for conferences,
           symposia, workshops, and meetings for calendar year 2000, but
           there were only 21 entries for 2001 and 0 for 2002, 2003, and 2005.
           There was one entry each for 2004, 2006, and 2007; however,
           ORNL had not entered this data in the system, it was three other
           Department sites that had done so to account for their personnel
           requesting attendance at the ORNL conferences. We were told by
           an ORO official that the absence of ORNL information in the
           database was due to the ORNL Conference Center practice of
           excluding all conferences from the required approval process, as
           discussed in the previous section. We spoke with an official in the
           Office of the Executive Secretariat and were told that as a result of
           UT-Battelle’s omission, conference funding and attendance were
           underestimated in the Department’s quarterly and annual reports.
           We were told by ORO and UT-Battelle senior management that, as
           a result of our review, UT-Battelle now plans to provide past and
           future conference information for inclusion into the database.

TRAVEL     As part of our inspection activities, we reviewed a sample of travel
VOUCHERS   vouchers submitted by Federal and contractor employees attending
           certain Office of Science conferences included in our review. We
           found that, although meals had been provided to the attendees during
           the conferences, some Federal and contractor employees affiliated
           with the Office of Science and the National Nuclear Security
           Administration (NNSA) did not deduct the corresponding meal per
           diem amounts from their official travel vouchers, apparently
           claiming reimbursement for meals they received at no cost.

           The FTR requires conference attendees, both Federal and
           contractor, to deduct the appropriate amount from their travel
           reimbursement when meals are furnished at conferences.
           However, our review of two conferences found that 17 of 57
           Federal and contractor employees did not reduce their
           reimbursement amount. Thus, some employees were apparently
           reimbursed for meal costs that they never incurred. While we
           recognize that honest mistakes can happen, in this case the number
           of apparently inaccurate claims seems unreasonable. We have
           provided details of this finding to appropriate officials with the
           Office of Science and NNSA.




Page 7                                                    Details of Findings
RECOMMENDATIONS   We recommend that the Director of the Department’s Office of
                  Management:

                  1. As the initiator of Department Order 110.3A, issue more-
                     specific Department guidance on allowable food and beverage
                     costs for conferences and similar events that are funded at least
                     in part by the Department.

                  We recommend that the Director, Office of Science:

                  2. Determine whether other Office of Science sites are complying
                     with conference management guidelines and take appropriate
                     action as necessary; and,

                  3. Review the information disclosed by our review regarding
                     travel vouchers submitted by Federal and contractor employees
                     attending Office of Science conferences and take additional
                     actions as appropriate.

                  We recommend that NNSA’s Associate Administrator for
                  Management and Administration:

                  4. Review the information disclosed by our review regarding
                     travel vouchers submitted by Federal and contractor employees
                     attending Office of Science conferences and take additional
                     actions as appropriate.

                  We recommend that the Manager, Oak Ridge Office:

                  5. Review food and beverage costs associated with
                     UT-Battelle-managed conferences, assess their allowability and
                     initiate appropriate action to recover all unallowable costs;

                  6. Review the use of registration fees from non-Department
                     sources that were collected by UT-Battelle and initiate
                     appropriate action to recover any Department costs incurred as
                     a result of their inappropriate use;

                  7. Take steps to ensure UT-Battelle obtains appropriate approvals
                     for conferences and provides all conference information for
                     inclusion in the Department’s Conference Management
                     System; and,

                  8. Consider the information disclosed by our review when
                     evaluating UT-Battelle’s performance.



Page 8                                                           Recommendations
             We recommend that the Manager, Thomas Jefferson Site Office:

             9. Review the use of registration fees from non-Department
                sources that were collected by Jefferson Science Associates
                and initiate appropriate action to recover any Department costs
                incurred as a result of their inappropriate use. Take additional
                administrative actions as deemed necessary.

MANAGEMENT   In comments on a draft version of this report, management
COMMENTS     concurred with the recommendations and identified a number of
             corrective actions. We have included management’s comments in
             Appendix C.

INSPECTOR    In general, we considered management’s comments to be
COMMENTS     responsive to our recommendations. To address a question from
             management regarding the intent of recommendation 1, we added
             clarifying language to the recommendation.




Page 9                               Management and Inspector Comments
Appendix A

SCOPE AND     Our review included conference management activities at
METHODOLOGY   Argonne National Laboratory, Oak Ridge National Laboratory,
              and Thomas Jefferson National Accelerator Facility for primarily
              fiscal years 2005 through 2007. The majority of our fieldwork was
              conducted from October through December 2007. It included
              interviews with Department and contractor officials. Our
              document review and analysis included:

                 •   Conference invoices, banquet booking orders, and
                     accounting reconciliation documents;

                 •   Travel vouchers submitted by Department and contractor
                     employees attending selected conferences;

                 •   Information contained in the Department’s Conference
                     Management System;

                 •   Federal, Department, and local policies and regulations
                     pertaining to conferences; and

                 •   Prior Office of Inspector General and other related reports.

              We assessed the Department’s compliance with the Government
              Performance and Results Act of 1993. Our review indicated that
              the Department established performance measures related to
              financial management, although none specifically related to
              conference management.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                               Scope and Methodology
Appendix B

PRIOR REPORTS   The following are prior related Department of Energy Office of
                Inspector General reports:

                • “Sandia National Laboratory-California Procurement Card
                  Program” (DOE/IG-0754, January 2007);

                • “Audit of Fermi National Accelerator Laboratory Cost Claimed
                  Under Contract No. DE-AC02-76CH03000 for Fiscal Year
                  2004” (OAS-FC-06-01, April 2006);

                • “Management of the Clean Cities Conference” (OAS-SR-06-01,
                  October 2005);

                • “Report on Assessment of Changes to the Internal Control
                  Structure and Their Impact on the Allowability of Costs Claimed
                  by and Reimbursed to Fermi National Accelerator Laboratory
                  Under Department of Energy Contract No. DE-AC02-
                  76CH03000” (OAS-V-05-07, May 2005);

                • “University of California’s Costs Claimed and Related Internal
                  Controls for Operation of Los Alamos National Laboratory”
                  (DOE/IG-0596, April 2003);

                • “Inspection of the Department of Energy’s Conference Policies
                  and Practices” (DOE/IG-0433, December 1998); and,

                • “The U.S. Department of Energy’s X-Change 1997: The Global
                  D&D Marketplace Conference” (DOE/IG-0429,
                  September 1998).

                The following is a prior report issued by the Department of Justice
                Office of Inspector General that has similar findings at Justice:

                •   “Department of Justice Conference Expenditures” (Audit
                    Report 07-42, September 2007).




Page 11                                                             Prior Reports
Appendix C
______________________________________________________________________________




______________________________________________________________________________

Page 12                                                Management Comments
Appendix C (continued)
______________________________________________________________________________




______________________________________________________________________________

Page 13                                                Management Comments
Appendix C (continued)
______________________________________________________________________________




______________________________________________________________________________

Page 14                                                Management Comments
Appendix C (continued)
______________________________________________________________________________




______________________________________________________________________________

Page 15                                                Management Comments
Appendix C (continued)
______________________________________________________________________________




______________________________________________________________________________

Page 16                                                Management Comments
                                                                    IG Report No. DOE/IG-0794




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                    http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
